    DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General



    Open Inspector General Recommendations Concerning the
       Former Immigration and Naturalization Service from
       Unaccompanied Juveniles in INS Custody, a Report
         by the Department of Justice Inspector General




Office of Inspections, Evaluations, & Special Reviews

 OIG-04-18                             March 2004
                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG periodically as part of its oversight responsibility with respect to DHS to
identify and prevent fraud, waste, abuse, and mismanagement.

This report is the result of this office’s assessment of the responsibilities for addressing open
recommendations made by the Department of Justice Office of Inspector General concerning
unaccompanied alien juveniles in federal custody. The assessment was necessary because the
establishment of the Department of Homeland Security realigned former immigration functions.
It is based on interviews with employees and officials of relevant agencies and institutions and a
review of applicable documents.

Our assessment was developed on the basis of the best knowledge available to the OIG. It is
my hope that this report will result in more effective, efficient, and/or economical operations. I
express my appreciation to all of those who contributed to the preparation of this report.




Clark Kent Ervin
Inspector General
                                                                                                                        Contents

Synopsis ......................................................................................................................................... 1

Memorandum to the Under Secretary of the Border & Transportation Directorate ...................... 2

Memorandum to the Inspector General, Department of Health and Human Services .................. 9

Appendix A ....................................................................................................................................13




    OIG Open Recommendations Concerning “Unaccompanied Juveniles in INS Custody”                                                                Page i
OIG
Department of Homeland Security
Office of Inspector General


                                                  SYNOPSIS

    The Immigration and Naturalization Service (INS) encounters over 100,000 accompanied and
    unaccompanied illegal juveniles under the age of 18 every year, according to the Department of Justice
    Office of the Inspector General (DOJ OIG). The management of apprehended and detained juveniles
    presents special concerns, logistical pressures, and legal responsibilities for the INS. In 2001, the DOJ
    OIG issued a report describing its study of how INS dealt with juveniles. The report, Unaccompanied
    Juveniles in INS Custody, Rep. No. I-2001-009 (Sept. 2001), contained 28 recommendations to improve
    the INS’ juvenile detention policies and procedures. In the months that followed, the INS and the DOJ
    OIG closed 8 recommendations as completed.

    The Homeland Security Act of 2001 transferred the functions of the INS to the Department of Homeland
    Security (DHS). By this transfer, the responsibility for ensuring that INS completed appropriate
    corrective action regarding its juvenile detention policies vested in the DHS OIG. However, the
    Homeland Security Act changed the detention and treatment of juveniles who were apprehended for
    immigration violations. Section 462 of the Homeland Security Act transferred to the Director of the
    Office of Refugee Resettlement of the Department of Health and Human Services (HHS) functions
    under the immigration laws with respect to the care of unaccompanied alien children.

    The division of functions left responsibility for continuing to take needed corrective action uncertain
    as between HHS and DHS, as the successor of the INS. The DHS OIG assessed the responsibilities for
    addressing the open recommendations made by the DOJ OIG report based upon its review of the original
    DOJ OIG report, the changes wrought by the Homeland Security Act provisions, and discussions with
    program participants from the INS who now are employees of DHS. The resulting memoranda set forth
    the DHS OIG’s best judgment regarding how each of the remaining unresolved recommendations are to
    be resolved and by which agency. The first memorandum is addressed to the Under Secretary for Border
    and Transportation Security, under whom are the legacy elements of INS’ juvenile detention program.
    The second memorandum is addressed to the Acting Inspector General for HHS, the OIG office that is
    now responsible for the oversight of corrective actions regarding HHS’ newly acquired juvenile alien
    detention program.

    The DHS OIG intends to continue to track corrective action regarding the recommendations that remain
    DHS’ responsibility and is available to provide assistance to the HHS OIG should it be required.




          OIG Open Recommendations Concerning “Unaccompanied Juveniles in INS Custody”                 Page 1
                                 DEPARTMENT OF HOMELAND SECURITY
                                       Office of Inspector General
                                        Washington, DC 20528




                                                     February 25, 2004

MEMORANDUM

TO:                    The Honorable Asa Hutchinson
                       Under Secretary
                       Border and Transportation Security

FROM:                  Clark Kent Ervin
                       Inspector General

SUBJECT:               Open Inspector General Recommendations Concerning the Former Immigration and
                       Naturalization Service


In September 2001, the Department of Justice (DOJ) Office of Inspector General (OIG) issued a
report, “Unaccompanied Juveniles in INS Custody,” Report Number I-2001-009. The DOJ OIG report
described the treatment of unaccompanied illegal juveniles held in Immigration and Naturalization
Service (INS) custody and subsequently placed into formal immigration proceedings. The DOJ OIG
examined the policies and procedures developed by INS in response to its 1997 settlement agreement
of a class action lawsuit related to the detention, processing, and release of unaccompanied illegal
juveniles.1 The DOJ OIG found that, since it signed the settlement agreement, INS made significant
improvements in its juvenile program, such as training its employees on new procedures and increasing
juvenile bed spaces.

However, the DOJ OIG also found deficiencies in INS policies and procedures that could have
potentially serious consequences for the well being of juveniles. Major findings included:

    •    Non-delinquent juveniles are not always segregated from delinquent juveniles.


1
  United States District Court, Central District of California, Jenny Lisette Flores, et al. -vs- Janet Reno, Attorney General of
the United States, et al. Case No. CV 85-4544-RJK (Px).


Page 2                    OIG Open Recommendations Concerning “Unaccompanied Juveniles in INS Custody”
   •    INS juvenile coordinators were not visiting all juveniles in their custody on a weekly basis.

   •    INS was unable always to place juveniles in an appropriate secure detention facility or a non-
        secure shelter within three to five days of taking custody.

   •    INS does not analyze the data on juveniles it collects to identify systemic problems or trends that
        might indicate problems.

   •    After their release from custody, 68% of the juveniles in the DOJ OIG sample failed to appear
        for their immigration hearings.

The DOJ OIG made 28 recommendations to improve the INS’ juvenile detention policies and
procedures. The recommendations and their current status are described in the attachment. Since the
issuance of the report and prior to the formation of the Department of Homeland Security (DHS), the
DOJ OIG and INS closed eight recommendations. On March 1, 2003, with the establishment of DHS,
immigration functions transferred to DHS. The DHS OIG subsequently assumed responsibility for
tracking and closing open INS recommendations from the DOJ OIG report.

Some INS functions associated with the care and housing of juveniles in federal custody as a result of
their immigration status were transferred by the Homeland Security Act of 2002 to the Director of the
Office of Refugee Resettlement of the Department of Health and Human Services (HHS). Accordingly,
it is our understanding that HHS is now responsible for resolving some of the recommendations from the
DOJ OIG report. We believe the responsibility to close nine of the remaining open recommendations
addressing juvenile housing issues rests with HHS.

We understand that the Border and Transportation Security Directorate (BTS) is in the process of
developing its “vision” for its reorganized juvenile program which will include the policies and
procedures to integrate the juvenile program roles and responsibilities of the Bureau of Immigration
and Customs Enforcement and the Bureau of Customs and Border Protection. We also understand that
DHS is developing a memorandum of understanding with HHS concerning interdepartmental roles
and responsibilities for juvenile custody. The welfare of juveniles in federal custody should be a high
department priority, and we hope to see a program in place soon.

Given the early stages of BTS’ juvenile program reorganization effort, we will not track eight of the
remaining open recommendations pertaining to policies and procedures. We will administratively close
recommendations 9–14, 21, and 24. As BTS revises and updates it juvenile program, it should consider
the issues identified by the DOJ OIG report and incorporate the recommendations as appropriate into
its revised juvenile program. We believe this is such an important issue that we plan to review BTS’
reorganized juvenile program when it is implemented. We will use the DOJ OIG report as a benchmark
for our review.



       OIG Open Recommendations Concerning “Unaccompanied Juveniles in INS Custody”                     Page 3
We will continue to track recommendations 4 and 25. We believe that recommendation 5, which
addresses juvenile custody issues arising from the time of apprehension until placement in a housing
facility, will require a joint effort by DHS and HHS to resolve.

To coordinate our efforts to address the issues identified by the DOJ OIG, please contact Robert L.
Ashbaugh, Assistant Inspector General for Inspections, Evaluations, and Special Reviews, at (202) 254-
4100.

     Status of Recommendations from the DOJ OIG’s Report, “Unaccompanied
                           Juveniles in INS Custody”

1. The INS should include and enforce standards in all contracts with secure detention facilities that
require the segregation of non-delinquent INS juveniles from delinquent juveniles. These standards
should provide for strict segregation in living quarters and no more than minimal contact in all other
common areas. The facilities should be required to immediately notify the INS if they cannot meet this
requirement so the INS can take immediate corrective action.

Status: Open – HHS

2. The INS should implement procedures that ensure weekly visits with all juveniles in custody and to
all juvenile housing facilities. The procedures should establish clear descriptions of the content of the
visits and documentation requirements. The INS should delegate authority to appropriately trained staff
to assist district juvenile coordinators in complying with the weekly visitation requirements.

Status: Open – HHS

3. The INS should implement procedures that require same-sex escort of juveniles. If same-sex escorts
are not possible, procedures for appropriate alternative safeguards for juveniles should be followed.

Status: Open – HHS

4. The INS should implement procedures that require juvenile transportation and detention custodial
records that provide sufficient accountability for all juveniles detained in the custody of the Border
Patrol sectors and the districts.

Status: Open – BTS




Page 4               OIG Open Recommendations Concerning “Unaccompanied Juveniles in INS Custody”
5. The INS should implement procedures that require INS officers, or designated non-INS personnel
under contract with the INS, to escort and maintain physical custody of all juveniles until the juvenile is
released to a sponsor.

Status: Open – BTS and HHS

6. The INS should implement specific rules that govern the use of restraints on juveniles in the custody
of INS officers, in shelter facilities, and in secure facilities. The INS should implement procedures to
monitor compliance.

Status: Open – HHS

7. The INS should revise its policy regarding telephone use by juveniles to ensure juveniles without
funds are able to make appropriate telephone calls and juveniles are permitted access to telephones that
at least meet the minimum requirements.

Status: Open – HHS

8. The INS should implement procedures that require the monitoring and regular reporting of instances
of non-compliance with the 3-to-5-day placement requirement. These procedures should include the
reporting of justifications for the overdue placements.

Status: Closed

9. The INS should require districts to designate and train back-up juvenile coordinators.

Status: BTS-Administratively Closed

10. The INS should re-emphasize to all INS officers the requirement to immediately notify the district
juvenile coordinators of all placements and movement of juveniles and to complete and forward all
required documentation to the district juvenile coordinators.

Status: BTS-Administratively Closed

11. The INS should provide a list of all approved juvenile housing facilities to the districts and Border
Patrol sectors with the stipulation that no juveniles are to be placed in a facility without the prior
notification of the juvenile coordinator.

Status: BTS-Administratively Closed




      OIG Open Recommendations Concerning “Unaccompanied Juveniles in INS Custody”                   Page 5
12. The INS should identify all juvenile housing facilities now being used by the districts and Border
Patrol sectors to house juveniles.

Status: BTS-Administratively Closed

13. Each Border Patrol sector should designate a coordinator for juvenile issues to ensure timely liaison
with the district juvenile coordinators.

Status: BTS-Administratively Closed

14. Districts with a large volume of juvenile activity should provide administrative support to the
district juvenile coordinator.

Status: BTS-Administratively Closed

15. The INS should implement contract compliance procedures to ensure contracted facilities comply
with their contractual responsibilities.

Status: Closed

16. The INS should establish regular communications at the district level with volunteer agencies,
shelter staff, and legal service providers to identify and resolve juvenile detention issues.

Status: Closed

17. The INS should develop a national plan for assessing its needs for secure, medium-secure, and non-
secure bed space and acquiring the needed additional beds.

Status: Open – HHS

18. The INS should implement procedures that require at least quarterly reporting of instances of non-
delinquent juveniles placed in secure detention. The procedures should include the duration of stay in
secure detention for each instance.

Status: Closed

19. The INS should implement procedures that require regional juvenile coordinators to at least
quarterly monitor, document, and report juvenile housing facility inspections to headquarters.

Status: Open – HHS



Page 6               OIG Open Recommendations Concerning “Unaccompanied Juveniles in INS Custody”
20. The INS should implement procedures to collect, track, analyze, and report significant incident
reports involving juveniles.

Status: Open – HHS

21. The INS should regularly review the Juvenile Alien Management System and Deportable Alien
Control System to ensure the basic identifying data in both systems match and is accurate.

Status: BTS-Administratively Closed

22. The INS should revise the Juvenile Protocol Manual to incorporate changes in juvenile policy or
procedures and disseminate the revised manual to all field offices.

Status: Closed

23. The INS should revise the definition of what constitutes an influx condition, provide guidance for
when the use of the INFLUX code (term used when the INS unexpectedly received custody of large
numbers of juvenile aliens) is justified for placing non-delinquent juveniles in secure detention, and
monitor to ensure that INFLUX is not inappropriately used as a reason for placing non-delinquent
juveniles in secure detention.

Status: Closed

24. The INS should include the Juvenile Program in its INSPECT reviews (an internal review program
of the former INS) to monitor compliance.

Status: BTS-Administratively Closed

25. The INS should establish a continuing post-academy INS-wide training program to ensure all
employees whose duties bring them into contact with juveniles understand and comply with the terms of
the Flores agreement and document the training.

Status: Open – BTS

26. The INS should allow district directors discretion in releasing juveniles to a responsible sponsor
if a parent is unwilling to come forward and the INS should provide appropriate guidance to control
discretionary release.

Status: Closed




      OIG Open Recommendations Concerning “Unaccompanied Juveniles in INS Custody”                  Page 7
27. The INS should evaluate the home assessment process and implement changes to streamline the
process.

Status: Open – HHS

28. The INS should confer with Executive Office of Immigration Review to implement procedures to
facilitate timely immigration hearings for juveniles and to improve juvenile attendance at immigration
hearings.

Status: Closed




Page 8               OIG Open Recommendations Concerning “Unaccompanied Juveniles in INS Custody”
                            DEPARTMENT OF HOMELAND SECURITY
                                               Office of Inspector General
                                                Washington, DC 20528




                                                     February 25, 2004

MEMORANDUM

TO:                    Dara Corrigan
                       Acting Principal Deputy Inspector General
                       Department of Health and Human Services

FROM:                  Clark Kent Ervin
                       Inspector General

SUBJECT:               Open Inspector General Recommendations Concerning the Former Immigration and
                       Naturalization Service


In September 2001, the Department of Justice (DOJ) Office of Inspector General (OIG) issued a
report, “Unaccompanied Juveniles in INS Custody,” Report Number I-2001-009. The DOJ OIG report
described the treatment of unaccompanied illegal juveniles held in Immigration and Naturalization
Service (INS) custody and subsequently placed into formal immigration proceedings. The DOJ OIG
examined the policies and procedures developed by INS in response to its 1997 settlement agreement
of a class action lawsuit related to the detention, processing, and release of unaccompanied illegal
juveniles.2 The DOJ OIG found that, since it signed the settlement agreement, INS made significant
improvements in its juvenile program, such as training its employees on new procedures and increasing
juvenile bed spaces.

However, the DOJ OIG also found deficiencies in INS policies and procedures that could have
potentially serious consequences for the well being of juveniles. Major findings included:

    •    Non-delinquent juveniles are not always segregated from delinquent juveniles.


2
  United States District Court, Central District of California, Jenny Lisette Flores, et al. -vs- Janet Reno, Attorney General of
the United States, et al. Case No. CV 85-4544-RJK (Px).


        OIG Open Recommendations Concerning “Unaccompanied Juveniles in INS Custody”                                      Page 9
   •      INS juvenile coordinators were not visiting all juveniles in their custody on a weekly basis.

   •      INS was unable to always place juveniles in an appropriate secure detention facility or a non-
          secure shelter within three to five days of taking custody.

   •      INS does not analyze the data on juveniles it collects to identify systemic problems or trends that
          might indicate problems.

   •      After their release from custody, 68 % of the juveniles in the DOJ OIG sample failed to appear
          for their immigration hearings.

The DOJ OIG made 28 recommendations to improve the INS’ juvenile detention policies and
procedures. Since the issuance of the report and prior to the formation of the Department of Homeland
Security (DHS), the DOJ OIG and INS closed eight recommendations. On March 1, 2003, with the
establishment of DHS, immigration functions transferred to DHS. The DHS OIG subsequently assumed
responsibility for tracking and closing open INS recommendations from the DOJ OIG report.

However, certain INS functions associated with the care and housing of juveniles in federal custody as
a result of their immigration status were transferred by the Homeland Security Act of 2002 (HSA) to
the Director of the Office of Refugee Resettlement of the Department of Health and Human Services
(HHS). Included in the requirements of Section 462 of the HSA, the Director of the Office of Refugee
Resettlement is responsible for:

   •      Coordinating and implementing the care and placement of unaccompanied alien children who are
          in federal custody by reason of their immigration status.

   •      Ensuring that the interests of the child are considered in decisions and actions relating to the care
          and custody of an unaccompanied alien child.

   •      Identifying a sufficient number of qualified individuals, entities, and facilities to house
          unaccompanied alien children.

   •      Overseeing the infrastructure and personnel of facilities in which unaccompanied alien children
          reside.

   •      Maintaining statistical information and other data on unaccompanied alien children for whose
          care and placement the director is responsible.

   •      Conducting investigations and inspections of facilities and other entities in which
          unaccompanied alien children reside.



Page 10                 OIG Open Recommendations Concerning “Unaccompanied Juveniles in INS Custody”
       •    Consulting with appropriate juvenile justice professionals, the Director of the Bureau of
            Citizenship and Immigration Services, and the Assistant Secretary of the Bureau of Immigration
            and Customs Enforcement to ensure that unaccompanied alien children are likely to appear
            for all hearings or proceedings in which they are involved; are protected from smugglers,
            traffickers, or others who might seek to victimize or otherwise engage them in criminal, harmful,
            or exploitive activity; and are placed in a setting in which they are not likely to pose a danger to
            themselves or others.

Based on the transfer of these responsibilities, it is our understanding that the responsibility for resolving
some of the outstanding recommendations from the DOJ report now resides with HHS. Specifically,
we believe that effort to close recommendations 1, 2, 3, 6, 7, 17, 19, 20, and 27, which address issues
associated with juvenile housing, needs to be conducted by HHS.2 We also believe that recommendation
5, which addresses juvenile custody issues arising from the time of apprehension until placement in a
housing facility, will require a joint effort by DHS and HHS to resolve. We recognize, that some of the
DOJ OIG recommendations may be moot because HHS may already have polices and procedures to
address the DOJ OIG’s concerns.

Since our departments share responsibility for the custody of the juveniles, I would like our offices to
work closely with the appropriate agencies within our respective departments to close the DOJ OIG’s
recommendations. I believe that to ensure that juveniles in federal custody receive appropriate care
and safety, we must work together to ensure that a seamless juvenile care and custody program is
developed. Also, we welcome the opportunity to assist you with the development of the memorandum
of understanding between DHS and HHS concerning juvenile detention issues.

To coordinate our efforts to address the issues identified by the DOJ OIG, please contact Robert L.
Ashbaugh, Assistant Inspector General for Inspections, Evaluations, and Special Reviews, at (202) 254-
4100.

    Recommendations from the DOJ OIG’s Report, “Unaccompanied Juveniles in INS
                           Custody,” that Apply to HHS

1. The INS should include and enforce standards in all contracts with secure detention facilities that
require the segregation of non-delinquent INS juveniles from delinquent juveniles. These standards
should provide for strict segregation in living quarters and no more than minimal contact in all other
common areas. The facilities should be required to immediately notify the INS if they cannot meet this
requirement so the INS can take immediate corrective action.




3
    The exact text of the applicable recommendations from the DOJ OIG report is listed in the Attachment.


           OIG Open Recommendations Concerning “Unaccompanied Juveniles in INS Custody”                     Page 11
2. The INS should implement procedures that ensure weekly visits with all juveniles in custody and to
all juvenile housing facilities. The procedures should establish clear descriptions of the content of the
visits and documentation requirements. The INS should delegate authority to appropriately trained staff
to assist district juvenile coordinators in complying with the weekly visitation requirements.

3. The INS should implement procedures that require same-sex escort of juveniles. If same-sex escorts
are not possible, procedures for appropriate alternative safeguards for juveniles should be followed.

5. The INS should implement procedures that require INS officers, or designated non-INS personnel
under contract with the INS, to escort and maintain physical custody of all juveniles until the juvenile is
released to a sponsor.

6. The INS should implement specific rules that govern the use of restraints on juveniles in the custody
of INS officers, in shelter facilities, and in secure facilities. The INS should implement procedures to
monitor compliance.

7. The INS should revise its policy regarding telephone use by juveniles to ensure juveniles without
funds are able to make appropriate telephone calls and juveniles are permitted access to telephones that
at least meet the minimum requirements.

17. The INS should develop a national plan for assessing its needs for secure, medium-secure, and non-
secure bed space and acquiring the needed additional beds.

19. The INS should implement procedures that require regional juvenile coordinators to at least
quarterly monitor, document, and report juvenile housing facility inspections to headquarters.

20. The INS should implement procedures to collect, track, analyze, and report significant incident
reports involving juveniles.

27. The INS should evaluate the home assessment process and implement changes to streamline the
process.




Page 12               OIG Open Recommendations Concerning “Unaccompanied Juveniles in INS Custody”
                                                                               Appendix A
                                                                               Report Distribution

               Department of Homeland Security

               Under Secretary, Border and Transportation Security Directorate

               Department of Justice

               The Honorable Glenn A. Fine, Inspector General

               Department of Health and Human Services

               Dara Corrigan, Acting Principal Deputy Inspector General




OIG Open Recommendations Concerning “Unaccompanied Juveniles in INS Custody”               Page 13
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG),
Office of Inspections, Evaluations, and Special Reviews at (202) 254-4205 or 4208, or
fax your request to (202) 254-4304.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603 or write to Department of Homeland Security, Washington,
DC 20528, Attn: Office of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
